2311 Douglas Street
Omaha, Nebraska 68102-1214

Q@OCKLE

L egal Bri efs E-Mail Address:

Est. 1923 contact@cocklelegalbriefs.com

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 19-123

SHARONELL FULTON, et al.,
Petitioners,
Vv.
CITY OF PHILADELPHIA, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF GOVERNMENT
CONTRACTS PROFESSOR AND PRACTITIONER RICHARD C. LOEB AS AMICUS
CURIAE IN SUPPORT OF RESPONDENTS in the above entitled case complies with the typeface
requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point
for the text and 10 point for the footnotes, and this brief contains 5479 words, excluding the parts

that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 19th day of August, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

ern] Kense 0 Boos Ondbaw hh: Ohl

My Comm. Exp. September 5, 2023
Notary Public

 

Affiant 39999
